Audit
Report
             PROCEDURES USED TO TEST THE
               DOLLAR ACCURACY OF THE
          DEFENSE LOGISTICS AGENCY INVENTORY


Report No. D-2000-138                          June 1, 2000



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
  General, DoD, Home Page at: www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms

DFAS                  Defense Finance and Accounting Service
DLA                   Defense Logistics Agency
DSS                   Distribution Standard System
                         Office of the Inspector General, DoD
Report No. D-2000-138                                                   June 1, 2000
   (Project No. D2000FJ-0067.001)
   (formerly Project No. 0FJ-2102.01)

                Procedures Used to Test the Dollar Accuracy of the
                       Defense Logistics Agency Inventory


                                   Executive Summary

Introduction. Management and distribution of inventories are the major logistics
functions performed by the Defense Logistics Agency (DLA). At the end of FY 1999,
DLA stored about $7.8 billion (unadjusted) of consumable spare parts, food, clothing
and textiles, and medical supplies at 18 of its distribution depots. Accurate inventory
records are essential to achieving DoD goals for operational readiness, total asset
visibility, financial and budget credibility, and operating efficiencies.

DLA relies on statistical sampling techniques to measure the accuracy of the depot
perpetual inventory records because performing annual, 100 percent wall-to-wall
inventory counts at all depots is not practical or cost-effective. Information from the
depot records is provided to other DLA logistics systems, which are then used to
prepare the financial statements. To obtain useful and reliable information from a
statistical sample, the sampling techniques must be statistically valid, must be properly
applied, and must produce results within acceptable levels of confidence and precision.
In addition, a high degree of control must be established over the universe identification
and stratification, sample selection, physical count, and summary procedures.

Objectives. The objective of the audit was to determine whether the sampling plan
used to measure the dollar value accuracy of DLA-owned materiel stored at 18
distribution depots was statistically valid, was properly designed and executed, and
could be relied on to achieve its intended purposes. We also evaluated applicable
management controls. See Appendix A for a discussion of the scope and methodology
and the management control program.

Results. DLA made significant progress during FY 1999 to develop a plan and execute
valid statistical sampling techniques and other procedures needed to measure the dollar
value accuracy of inventories stored at 18 of its 24 distribution depots. Although
construction and execution of the sampling plan was a good first step toward producing
reliable inventory information, the sampling plan was missing some essential
procedures to ensure that the plan covered the complete universe of DLA-owned
inventories stored at the 18 depots. Further, the sampling plan was not fully reliable or
efficient because it was completed too far from year-end, did not document and provide
for oversight of the sample selection process, used less than a 95-percent confidence
level, and inefficiently stratified the universe and estimated errors. The plan also did
not test the accuracy of the unit price data in the logistics feeder systems. As a result of
the design weaknesses in the plan, the FY 1999 sample results were not reliable for
their intended purpose. Additionally, because the sampling plan did not cover about
30 percent of total DLA inventories, DLA could not use the sample results to assess the
dollar value of the inventory balance reported on the financial statements (finding A).

Previous audits that the General Accounting Office and the Inspector General, DoD,
conducted since FY 1996 reported problems with the accuracy of the depot perpetual
inventory records and procedures for verifying the accuracy of the records. Based on
our analysis of about 88 percent of the sample dollars, we concluded that the problems
continued to occur during FY 1999. In addition, DLA did not adequately document its
procedures to collect and summarize sample results. We did not obtain sufficient
evidence to support the results that DLA reported for about 12 percent of the sample
value, and the control weaknesses at the depots raised questions about the integrity of
the counts that we did not observe (finding B).

Summary of Recommendations. We recommend that the Director, DLA, include all
DLA-owned items stored at the depots in the sample universe and exclude all Military-
Department-owned items. We recommend that the Director include procedures in
future sampling plans to draw the sample universe from the same records that are used
to prepare the financial statements, include procedures to test unit prices, and include
procedures to cover DLA-owned inventories stored outside the depots. We
recommend that the Director stratify the universe on September 30 and complete
physical counts as close to year-end as possible, use a 95-percent confidence level, and
use the results of the FY 1999 sampling plans to improve the sampling structure of
future plans. We also recommend that the Director fully document the procedures for
conducting physical inventory counts and procedures for summarizing the results of the
counts and require that independent personnel observe and monitor the procedures.

Management Comments. The Comptroller, Defense Logistics Agency, concurred or
partially concurred with the recommendations. The Comptroller stated that DLA will
revise its sampling methodology and corresponding sampling plan to include all
DLA-owned items, draw the sample universe from the same records as those used to
prepare the financial statements, and improve the confidence and precision levels of the
sample. DLA also completed actions to improve inventory counting procedures and
planned actions to validate the condition of the items sampled and ensure all the sample
items are counted. The planned actions were responsive. Management comments are
discussed in the Findings section of this report, and the complete text of management
comments is in the Management Comments section.




                                             ii
Table of Contents

Executive Summary                                                           i


Introduction
     Background                                                             1
     Objectives                                                             2

Findings
     A. Adequacy of the Design of the FY 1999 Sampling Plan                 3
     B. Physical Count and Summary Procedures                              17

Appendixes
     A. Audit Process
          Scope                                                            25
          Methodology                                                      26
          Management Control Program                                       27
          Prior Coverage                                                   28
     B. Additional Information About the FY 1999 Sampling Plan             29
     C. Composition of Defense Logistics Agency-Owned Materiel Stored at
        the 24 Defense Depots                                              34
     D. Report Distribution                                                35


Management Comments
     Defense Logistics Agency                                              37
Background
    This report is the second in a series of reports on the amounts of inventories
    reported on the DoD financial statements. Inventories and inventory-related
    transactions represent major portions of the total assets, obligations, revenue,
    and expenses reported on the Defense Logistics Agency (DLA) financial
    statements. At the end of FY 1999, total DLA inventories consisted of about
    $9.4 billion (after valuation adjustments) worth of consumable spare parts, food,
    clothing and textiles, and medical supplies that the Military Departments and
    Defense agencies use to sustain operations. DLA stored about $7.8 billion
    (unadjusted) of the inventories at 18 of the 24 distribution depots that it
    manages.

    To help manage distribution operations, DLA implemented the Distribution
    Standard System (DSS). DSS has perpetual inventory records that keep a
    continuous record for each item stored at the depots. The Defense Finance and
    Accounting Service (DFAS) relies on the information in DSS to prepare the
    DLA financial statements. DLA is responsible for ensuring that information in
    DSS is complete, accurate, and reliable and that DFAS uses valid information to
    prepare the financial statements.

    Accurate DSS inventory records are essential to achieving DoD goals for
    operational readiness, total asset visibility, financial and budget credibility, and
    operating efficiencies. Accurate records can also help DLA to demonstrate that
    essential management controls are in place to safeguard DoD inventories stored
    at the depots. DLA relies on statistical sampling techniques to measure the
    accuracy of the depot records because DLA determined that performing annual,
    100 percent wall-to-wall inventory counts at all depots is not practical or cost-
    effective.

    To obtain useful and reliable information from a statistical sample, the sampling
    techniques used must be statistically valid, must be properly applied, and must
    produce results within defined sampling criteria. In addition, a high degree of
    control must be established over the universe identification and stratification,
    sample selection, physical count, and summary processes.

    In past years, DLA developed statistical sampling plans that attempted to
    measure record accuracy. DLA developed sampling plans with the idea that
    accurate information regarding the quantity of inventories, not their cost, would
    provide the crucial information that DLA needed to measure depot performance
    against DLA strategic goals for materiel distribution. DLA focused its physical-
    inventory-count procedures on the number of units in the inventory, in an
    attempt to get an accurate assessment about the quantity on hand. However, the
    continued emphasis on producing accurate information to support the cost of
    inventories reported in the DoD financial statements caused DLA to devise a
    new statistical sampling plan to focus on the dollar accuracy of the depot records
    for DLA-owned materiel.

                                          1
     During FY 1999, DLA developed a new statistical sampling plan for testing the
     accuracy of the portion of its inventory that was stored at 18 distribution depots.
     The plan differed from other sampling plans that DLA used because it was
     designed to select only DLA-owned items stored at the depots and allow for
     items with high dollar values to have a greater chance of being selected for
     physical count. DLA fielded that sampling plan in June 1999, and the 11 DLA
     depots (13 sites) involved in the execution of the sample completed the sample
     counts during August and September 1999 (See Appendix B for additional
     details about the FY 1999 sampling plan).


Objectives
     The overall objective of the audit was to evaluate management assertions
     pertaining to valuation, completeness, and existence of DoD inventory accounts
     and to determine whether the accounts were presented fairly on the financial
     statements. The objective of this part of the audit was to determine whether the
     sampling plan used to measure the dollar value accuracy of DLA-owned
     materiel stored at 18 distribution depots was statistically valid, was properly
     designed and executed, and could be relied on to achieve its intended purposes.
     We also evaluated applicable management controls. See Appendix A for a
     discussion of the scope and methodology and the management control program.




                                          2
           A. Adequacy of the Design of the
              FY 1999 Sampling Plan
           DLA made significant progress during FY 1999 to develop a plan and
           execute valid statistical sampling techniques and other procedures needed
           to measure the dollar value accuracy of inventories stored at 18 of its 24
           distribution depots. Although construction and execution of the sampling
           plan was a good first step toward producing reliable inventory
           information, the sampling plan was missing some essential procedures to
           ensure that the plan covered the complete universe of DLA-owned
           inventories stored at the 18 depots. Specifically, the sample universe:

                   •   did not include about $54 million of subsistence items stored
                       at the depots because DLA did not obtain the appropriate data
                       files from the Defense Integrated Subsistence Management
                       System,

                   •   included approximately $1.3 billion of Military-Department-
                       owned materiel stored at the 18 depots because DLA did not
                       use the ownership purpose codes in the Standard Automated
                       Materiel Management System, and

                   •   did not reconcile with the information that DFAS used to
                       prepare the financial statements.

           Further, the sampling plan was not fully reliable or efficient because it
           was completed too far from year-end, did not document and provide for
           oversight of the sample selection process, used less than a 95-percent
           confidence level, and inefficiently stratified the universe and estimated
           errors. The plan also did not test the accuracy of the unit price data in
           the logistics feeder systems. As a result of the design weaknesses in the
           plan, the FY 1999 sample results were not reliable for their intended
           purpose. Additionally, because the sampling plan did not cover about 30
           percent of total DLA inventories, DLA could not use the sample results
           to assess the dollar value of the inventory balance reported on the
           financial statements.


Progress Made During FY 1999
    The sampling plan and related statistical techniques and other procedures that
    DLA implemented in FY 1999 represented a significant improvement over the
    sampling methods used previously to measure the accuracy of the distribution
    depot inventory records. Efforts to develop a reliable statistical sampling plan
    covering the DLA-owned portion of materiel stored at the distribution depots
    represents a significant first step toward establishing the controls and procedures
    needed to produce reliable financial statements.

                                         3
           Prior Year Sampling Plans. Before FY 1999, DLA designed sampling plans
           that attempted to measure the record accuracy rate1 by distribution depot. The
           sampling plans for determining record accuracy rates, however, did not provide
           the information needed to measure the dollar value accuracy 2 of the DLA-owned
           materiel stored at the depots because the sampling techniques were not designed
           for that purpose. Previous sampling plans focused on measuring the accuracy of
           the number of items stored at a particular distribution depot and did not
           adequately consider the items’ dollar values and owners. As a result, the
           previous plans did not adequately reduce the risk of material misstatement to the
           DLA financial statements by selecting an appropriate mix of DLA-owned items
           and items with high unit prices and high extended values. The previous plans
           showed that the distribution depot inventory records had a relatively large
           number of quantity errors, but they did not show the effect that those quantity
           errors had in terms of dollars. Also, the timing of the previous plans was not
           geared toward providing a statistical estimate of the accuracy of the year-end
           inventory balance.

           FY 1999 Sampling Plan. During FY 1999, DLA established a statistically
           based inventory sampling process to measure the dollar value accuracy of the
           inventory records for DLA-owned materiel maintained at 18 of its 24
           distribution depots. DLA developed the revised plan in an attempt to overcome
           the deficiencies reported in prior audit reports and to help validate the dollar
           value accuracy of the portion of its inventory stored at the 18 distribution
           depots. In designing the plan, DLA consulted with personnel from the Office of
           the Inspector General, DoD, and the General Accounting Office. DLA
           attempted to develop a sampling plan that, while retaining its statistical validity,
           would allow the depots to complete the physical counts cost-effectively. The
           sampling plan is discussed in more detail in Appendix B.



Subsistence Items Stored at the Depots
           The universe that DLA tested in the FY 1999 sampling plan excluded about
           $54 million of subsistence (food) items stored at 6 of the 18 depots. The
           DLA-owned materiel stored at the 18 depots included spare and repair parts and
           other items classified into construction, electronics, industrial, general, clothing
           and textile, and subsistence commodity groups. DLA kept pricing data in the
           Standard Automated Materiel Management System for all items, except for
           materiel in the subsistence commodity group. DLA kept pricing and other
           information about subsistence items in the Defense Integrated Subsistence
           Management System. The sample inadvertently excluded the subsistence items
           because DLA did not obtain the appropriate data files from the Defense

1
    The record accuracy rate is the percentage of items counted, regardless of owner, without a variance.
    For example, a sampling plan designed to measure the record accuracy rate would count an error of $1
    the same as an error of $50,000.
2
    Dollar value sampling attempts to measure the dollar value accuracy of inventories reported on the
    financial statements at year-end.

                                                      4
           Integrated Subsistence Management System when it collected the universe data
           to conduct the sample. Exclusion of DLA-owned materiel from the sample
           universe further limited the usefulness of the reported results. Future plans
           must include all DLA-owned materiel stored at the depots, including subsistence
           items.



Military-Department-Owned Materiel
           The universe that DLA tested in FY 1999 inappropriately included
           approximately $1.3 billion of Military-Department-owned materiel. To achieve
           the sampling objectives, DLA established procedures to distinguish DLA-owned
           materiel from Military-Department-owned materiel stored at the 18 depots.3
           However, the procedures were not fully effective in compiling a complete and
           accurate universe of only the DLA-owned portion of materiel stored at the
           depots.

           The count observations that we performed showed that some of the items
           included in the sample, such as chemical suits and medical kits, were not owned
           by DLA. Further research during the audit showed that the items were included
           in the sample universe because DLA inadvertently included about $1.3 billion of
           Military-Department-owned assets, which overstated the sample universe by
           about 17 percent overall. DLA overstated the sample universe because the
           information DLA collected from DSS for sample purposes did not distinguish
           DLA-owned assets from Military-Department-owned assets when DLA-
           managed items stored at the depots had materiel that one of the Military
           Departments owned. In addition, DLA did not use the ownership purpose codes
           in the Standard Automated Materiel Management System to make sure that the
           universe included only DLA-owned materiel. As a result, commingled stock
           was included in the sample universe and treated as if it were all owned by DLA.

           We could not determine the impact that the overstated universe had on the
           sample results because the size of the universe influenced both the site and
           item-selection processes. For example, the first stage of the sample was
           influenced by the dollar value of DLA-owned materiel stored at the depots.
           Although the DLA universe was overstated by about 17 percent overall, the
           overstatement varied from less than 1 percent to more than 700 percent by
           depot. The Defense Depot San Diego, California, the universe of which was
           overstated the most, was selected three times during the first stage of the sample
           selection process. Had only DLA-owned items been included in the universe,
           the selection of the San Diego depot three times would have been much more

3
    DLA-owned materiel accounted for about 65 percent of the items and 13 percent of the total value of
    inventories stored at the 18 depots as of September 30, 1999. The reason that the DLA-owned
    inventories represented a high percentage of items but a relatively low percentage of total dollars is
    because the types of consumable items (such as clothing, bolts, and medical supplies) that DLA
    manages generally cost much less than types of reparable items (such as navigational computers, landing
    gear, and hydraulic pumps) that the Military Departments managed.

                                                      5
     unlikely. Future DLA sampling plans must exclude all Military-Department-
     owned materiel from the sample universe and ensure that only DLA-owned
     assets are included without regard to who has management responsibility over
     the materiel.


Consistency With Financial Statement Data
     The FY 1999 sampling plan did not include procedures to reconcile the universe
     that DLA tested through statistical sampling techniques with the information that
     DFAS used to prepare the financial statements. To further test the validity of the
     universe data that DLA tested in FY 1999, we used analytical procedures to
     compare the data with the on-hand inventory amounts in the financial records
     that DFAS used to prepare the FY 1999 DLA financial statements. Because a
     primary objective of using statistical sampling techniques to measure the
     accuracy of the DSS records is to validate information in the financial
     statements, the sample universe tested must come from the same records as are
     used to prepare the financial statements. Consistency between the universe data
     tested and the records that DFAS uses to prepare the financial statements would
     allow for the statistical estimate derived from the sampling plan to be applied to
     the portion of the financial statements that the universe represents. After
     adjusting the universe for the improper inclusion of Military-Department-owned
     materiel and the exclusion of subsistence items, our analysis still showed a
     discrepancy of about $269 million between the two sets of records. DLA did
     not detect the discrepancy because it did not have procedures to reconcile the
     two sources of information.

     Future DLA sampling plans must draw the sample universe from the same
     year-end financial records that DFAS uses to prepare the financial statements.
     The plan must also include reconciliation procedures to ensure that the two sets
     of data (including item quantities, conditions, and owners) are the same and that
     the interface between DSS and other DLA logistics systems works correctly.



Reliability and Efficiency of the FY 1999 Plan
     Completing the sample too far from year-end, not documenting and providing
     for oversight of the sample selection process, using less than a 95-percent
     confidence level, and inefficiently stratifying the universe and estimating
     expected error rates further degraded the reliability and efficiency of the sample
     results and increased audit risk.

     Timing of the Sampling Plan. DLA took positive steps to design the FY 1999
     sampling plan so that it would be completed close to year-end. DLA used
     June 30, 1999, data in the sample selection process and to assign items to a
     particular stratum. Depot personnel completed the physical counts between
     August 2, 1999, and September 30, 1999. DLA used the assigned strata as of

                                          6
June 30 and observed variances as of the dates that they completed the counts to
estimate the dollar value accuracy of the universe tested on September 30, 1999.
In doing so, DLA assumed that the stratification of the universe and observed
variances during the interim period adequately reflected the characteristics of the
universe on September 30.

In designing its sampling plan, DLA considered the trade-off between
completing the sample as close to year-end as possible and still making sure that
the plan could be implemented cost-effectively. The longer the interval to
complete the sample, however, the more likely it becomes that items will no
longer belong to the stratum that they were originally assigned. A long interval
also increases the audit risk that the quantity variances observed before year-end
no longer reflect the variances that would have been observed had all counts
been completed on the last day of the fiscal year. Factors such as unrecorded
receipts, issues, and movement of materiel that occur during the interim period
could cause the observed variance to no longer be valid at year-end. Although
completion of the sampling plan before year-end did not invalidate the FY 1999
sample results, the sampling plan did not include the necessary year-end
procedures to validate the DLA assumptions about the stratification of the
universe and observed variances during the interim period. As a result, the
sample results had an increased risk of not accurately representing the universe
tested.

Although it may be possible to design a sampling plan requiring that all sample
items be selected and all physical counts be completed on the last day of the
fiscal year, DLA determined that such a plan would not be feasible because it
would not be cost-effective to implement. The risk introduced from conducting
a sample over a period of time (interim period) cannot be fully quantified, but
DLA can reduce the risk to a reasonable level by shortening the interim period
as much as possible. Auditors can further reduce risk by performing additional
year-end testing procedures. The type of testing required is called roll-forward
procedures (when counts are completed or the universe is stratified before
year-end) and roll-back procedures (when counts are completed after year-end).
We believe that future sampling plans could and should be implemented over
less time than the 3-month period used in FY 1999. In our opinion, the best
course of action for DLA to take in future sampling plans is to select and stratify
the depot universe as of September 30 of the year under review and complete all
sample counts in as short of period as feasible after that. The sampling plan
must also include relevant roll-back procedures to cover the interim period from
year-end to the date of the last count.

Oversight of the Random Selection Process. One of the most critical parts of
a statistical sampling plan is the use of a random selection process.
Randomizing the selection process eliminates personal bias and subjective
considerations from the process. Randomizing also provides greater assurance
that the selected sample represents the underlying universe from which it was
drawn. Mistakes or bias introduced during the selection process can distort or
even invalidate an entire sample.


                                     7
DLA personnel told us that they used a random selection process to select
depots and provided documentation showing the results of the selection process.
They also told us that they used a random selection process to select the 3,177
items from the 13 sample sites. However, DLA did not adequately document
the selection procedures that it used, and it completed the selection procedures
without independent oversight. Therefore, we were unable to validate that the
selection process was done without bias or subjective consideration. In the
future, DLA should document its random selection process and have an
independent party observe and monitor the process.

Precision and Confidence Levels. The two major parameters that describe the
scope of a statistical sample are precision and confidence levels. To evaluate
the reasonableness of the DoD criteria established in DoD Regulation 7000.14-R
as they pertain to assessing DLA-owned inventories stored at the depots, we
researched pertinent General Accounting Office policies. The policies are
relevant to the DLA sampling objectives because the General Accounting Office
plays a key role in establishing policies that affect both financial accounting and
auditing in the Federal Government.

         Precision Level. Precision is a way of expressing the tolerable level of
error as a percentage of the sample estimate. For example, if the dollar estimate
of the inventory records (universe) was $10 billion with a precision level of
3 percent, DLA would have a degree of mathematical assurance that the true
value of the inventories was somewhere between $9.7 billion and $10.3 billion.
Tolerable error is related to materiality, or the amount of misstatement above
which would cause a user of the financial statements to not be able to rely on the
reported information. Tolerable error is subjective and depends on various
factors such as risk and the level of control established by the depots. The
General Accounting Office established an acceptable error rate ranging from
1 to 3 percent. The 3-percent rate represents the maximum acceptable amount
that a financial statement can be misstated before auditors would have to modify
their audit opinion. DoD Regulation 7000.14-R, “DoD Financial Management
Regulation,” Volume 11B, Chapter 55, December 1994, establishes a precision
level (materiality range) of 2.5 percent, which is within the range set by the
General Accounting Office. As long as the other assets on the balance sheet
(including the portion of inventories not covered by the sampling plan and the
reported value of the inventories) are misstated by less than 2.5 percent, sample
results should be acceptable for audit purposes.

        Confidence Level. In following DoD policy, DLA used less than a
95-percent confidence level. Confidence level expresses the degree of
mathematical assurance that the true inventory value falls within the range
estimated by the sample projection (projected inventory value plus or minus the
established precision level). In other words, confidence level expresses the
degree of risk that the sample results do not actually correspond to the universe
from which it was drawn and that the true value of inventories falls outside the
estimated range. For example, using the previous example, DLA could say that
with 90-percent confidence its inventory was valued at between $9.7 billion and
$10.3 billion. However, it also indicates a 10-percent chance that the true
inventory value actually falls outside that estimated range.

                                     8
           The required level of confidence depends on the degree to which DLA relies on
           sample results to validate its inventory records and to demonstrate that
           management controls are in place and operating effectively. Generally, if an
           organization relies heavily on sampling results to measure key areas of mission
           performance, has weak management controls, or both, that organization should
           have a minimum confidence level of 95 percent.

           DLA relies heavily on the results of statistical sampling to measure how well it
           performs critical parts of its combat logistics support mission. For example,
           DLA relies on statistical sampling to measure depot performance, to
           demonstrate that acceptable controls have been established over materiel in its
           custody, and to improve the effectiveness of depot operations. Additionally,
           auditors must be able to rely on the sample results because they represent the
           only objective information available to validate the integrity of the distribution
           depot inventory records (DLA does not perform 100 percent inventories
           counts). Prior audits and DLA disclosures showed that DLA had not yet been
           able to adequately demonstrate that it achieved an acceptable level of control
           over its inventories and inventory systems.

           Because of the high reliance that DLA and auditors place on effective sampling
           techniques and the inability of DLA to demonstrate that it has achieved an
           adequate level of control over its inventories, DLA must use a 95-percent
           confidence level in designing future sampling plans.

           Improving Item Stratification and Estimates of Expected Errors. Designing
           a highly reliable and efficient sampling plan to assess a large, diverse, and
           dynamic universe4 such as inventories stored at the distribution depots is very
           difficult to accomplish the first time it is attempted and will require several
           iterations to achieve a reliable and efficient sample design. In other words,
           DLA should improve the design of each plan using information obtained from
           the previous year’s plan to achieve an efficient plan after evaluating several
           iterations of plan design and results. Although DLA used statistical sampling
           techniques in the past, the prior year plans, for reasons discussed in this report,
           provided little useful information to design a highly reliable and efficient
           sampling plan during FY 1999.

                    Stratification of the Universe. DLA used a stratified sampling
           structure (separation of the universe into two or more categories) because
           stratification of a universe generally improves sampling efficiency and results in
           a smaller total sample size than a sample that is not stratified. A smaller sample
           size is possible because variability in the universe, not size of the universe,
           drives the sample size. DLA structured the universe into 7 categories, or strata,
           as defined in Appendix B.


4
    The universe of DLA-owned materiel stored at the 18 distribution depots consisted of about 2.4 million
    items, valued at about $7.8 billion and covering a wide spectrum of items classified into construction,
    electronics, industrial, general, clothing and textile, and subsistence commodity groups. The items
    varied greatly in terms of unit of issue, on-hand quantities, unit price, extended value, and type of
    physical storage.

                                                      9
     DLA made reasonable assumptions with the limited information available about
     how best to structure the universe of DLA-owned materiel stored at the depots.
     However, our assessment of the 1999 sample results indicated that DLA could
     improve the sampling structure. An extremely large number of items stored at
     many different warehouse locations generally took much longer and were harder
     to count than items with small on-hand quantities but large unit prices. Those
     characteristics were not adequately captured in the strata for extended dollars.
     For example, physical counts of chemical suits at the Defense Depot Albany,
     Georgia, reflected a large number of errors in the inventory records. Including
     the errors in the computation of the error rate for the stratum that the chemical
     suits were assigned would have significantly altered the sample results, so DLA
     excluded them from the computation. Additionally, the stratum for measurable
     items included many types of items that were actually countable. DLA could
     improve its sample results if it refined the stratification structure of future
     samples to consider the number of items on-hand in addition to extended dollars
     and if it redefined its definition of measurable items.

             Estimating Expected Error Rates. Determining the sample size within
     each stratum of a stratified sampling structure requires estimates of the expected
     error rate within each stratum. The estimates of error rates are combined to
     form an overall estimate of the error rate in the entire universe. Using the
     limited information available, DLA made reasonable estimates of expected error
     rates. However, because DLA had only limited information from prior samples
     (prior samples were structured differently) when it designed the FY 1999
     sample, error rates had to be estimated and averaged. Future sampling plans
     should use results of the FY 1999 sample to estimate expected error rates within
     each stratum.



Inventory Price Validation Procedures
     The sampling plan did not include procedures to validate the inventory pricing
     data in the logistics feeder systems. For inventory records to be accurate, they
     must contain complete and accurate information about each item’s owner,
     location, condition, quantity, and price. Although not fully effective, the
     sampling plan included procedures to distinguish DLA-owned materiel from
     Military-Department-owned materiel (ownership issues) stored at the depots.
     The plan required depot personnel to physically count all sample items. Proper
     conduct of physical counts, including accurately reporting the results of each
     count, provides sufficient evidence to validate whether each sample item’s
     location, condition, and quantity are correct in the inventory records at the time
     of the count (See finding B for issues on the depot count procedures). The
     FY 1999 plan did not, however, have procedures to validate the pricing data in
     the logistics feeder systems.

     DFAS prepared the DLA financial statements using pricing data from the
     Standard Automated Materiel Management System and the Defense Integrated
     Subsistence Management System, which are two primary DLA logistics feeder
     systems. The DLA inventory control points are required to maintain the

                                         10
    contracts and other procurement information that support the pricing data in the
    logistics feeder systems. In designing the procedures used to execute the
    FY 1999 sampling plan, DLA assumed that all pricing data in the logistics
    feeder systems were correct. Accordingly, the plan did not include procedures
    to validate pricing data by tracing prices from the logistics feeder systems to the
    appropriate procurement records at the inventory control points. As a result,
    the projected sample results provided information only about the effect that
    quantity discrepancies in the depot records had on inventory accuracy. The
    sample results did not provide any information regarding the effect that
    erroneous pricing data in the logistics feeder systems had on the value of
    DLA-owned materiel stored at the depots.

    No information was available from other DLA sources or prior audits for us to
    assess the accuracy of pricing data in the logistics feeder systems. Accordingly,
    we could not determine the overall effect, if any, that potential pricing errors
    had on the sample results.



Analysis of FY 1999 Sample Results
    DLA used statistical sampling techniques to determine whether and by how
    much the records for DLA-owned materiel stored at the 18 depots were
    misstated as of September 30, 1999, because of quantity errors in DSS.
    However, because of the design weaknesses in the plan that were discussed
    previously in this report, the FY 1999 sample results were not reliable for that
    purpose.

    DoD Regulation 7000.14-R requires that statistical sampling plans be designed
    to demonstrate that the inventory balances in the general ledger accounts are not
    misstated by more that 2.5 percent (precision) at a confidence level of
    90 percent. Therefore, to validate the book value of the DSS records, the
    sample results must show that the estimated error rate plus or minus the
    achieved precision level is within the range of book value plus or minus
    2.5 percent (DoD materiality range).

    To achieve the sampling objectives, DLA attempted to collect information about
    the characteristics of DLA-owned assets stored at the 18 depots from various
    logistics feeder systems, selected a sample of 3,177 items from 11 depots (13
    sites), performed physical counts, and summarized the results of the counts.

    The information that DLA collected for sampling purposes indicated that the
    value of the universe tested was about $9.1 billion (including $1.3 billion of
    Military-Department-owned materiel). Our analysis of the sample results
    indicated that between 12.8 percent and 24.4 percent of the DSS records tested
    contained quantity variances, which exceeded the DLA goal of 5 percent. As
    indicated in the following figure, our analysis of the sample results showed that
    at a 90-percent confidence level, the true and unknown value of the records
    tested was about $9.0 billion plus or minus $94.5 million. In other words, the
    effect that the quantity variances in the DSS records had on total dollar value

                                        11
      was to overstate it by no more than about $178.3 million (about 2 percent). The
      mathematical estimate of error range that was determined by the sample,
      although indicating that the book value of the DSS records was overstated, was
      within the acceptable DoD materiality range of book value plus or minus
      2.5 percent.




                                                               Materiality Range

                                                               Sample Estimate


                                          Book Value
 $8,900.00       $9,000.00        $9,100.00        $9,200.00          $9,300.00      $9,400.00
                                      (numbers in millions)
      Figure 1. Comparision of Sample Estimate to DoD Materiality Range




Other DLA-Owned Inventories
      The universe tested by the FY 1999 sampling plan did not include materiel and
      fuels stored at locations other than the 18 distribution depots and did not include
      procedures to test other inventory accounts such as in-transit materiel.
      Accordingly, DLA could not use the sample results to assess the dollar value of
      the inventory balance reported on its financial statements.

      DLA stored its inventories (materiel and fuels) at 24 distribution depots and
      hundreds of other DoD and contract storage locations worldwide. DLA
      excluded 6 of the 24 depots from the sampling plan because the depots did not
      have DSS in place at the end of June 1999, the date when DLA compiled the
      sample universe. In addition, DLA excluded its materiel and fuels stored at
      hundreds of other storage locations worldwide, and it also excluded in-transit
      materiel because the information was not available through DSS. Collectively,
      the value of the DLA-owned materiel that was excluded from the FY 1999
      sample universe represented about 30 percent of the total DLA inventories
      reported on the financial statements. DLA determined that it could not collect
      the necessary information about inventories that were not on the DSS records to
      design and conduct the sampling plan in FY 1999.

      During the audit, we requested that DLA personnel provide us with additional
      information about the materiel stored outside the depots. We requested
      information such as site lists showing where the materiel was physically located,
      the rationale for storing materiel outside the depots, and the dates when the

                                           12
    storage organizations last performed physical inventories. The availability of
    that type of information is essential to validate that the financial statements
    contain complete and accurate information about the DLA inventories. DLA
    did not provide most of the requested information because it was not readily
    available. As a result, DLA could not validate the accuracy of the inventory
    records for materiel located outside of the 18 distribution depots that were
    included in the FY 1999 sampling plan.

    The need for DLA to do additional work to get information about materiel
    located outside the depots could be reduced by consolidating, to the extent
    possible, materiel located at other DoD storage organizations into the depots.
    DLA must then either expand future sampling plans to cover the materiel and
    fuels stored at the other sites or develop alternative procedures to validate the
    accuracy of the inventory records.



Conclusion
    We commend the DLA personnel involved in the FY 1999 sampling plan effort
    for taking the actions needed to begin addressing the deficiencies that we
    reported previously regarding the adequacy of the prior years’ statistical
    sampling plans. Although the FY 1999 sampling plan produced inconclusive
    results, it demonstrated that DLA should be able to achieve a statistically
    reliable sampling plan for materiel stored at the depots by correcting the issues
    discussed in this report.

    Development of a reliable sampling plan covering the DLA-owned materiel
    stored at the distribution depots represents a significant step toward establishing
    the controls and procedures needed to prepare reliable financial statements.
    However, before DLA can validate the inventory value reported in the financial
    statements, other issues must still be overcome. DLA still needs to demonstrate
    the following:

           •       pricing data in the logistics feeder systems are complete and
                   accurate and reflect the historic cost of inventories;

           •       an adequate level of general and application controls has been
                   established over DSS, the logistics systems, and the interface
                   between systems;

           •       information in DSS about ownership, quantity, and condition of
                   all DLA-owned items is fed properly to logistics feeder systems,
                   and the DSS data are actually used to prepare the financial
                   statement; and

           •       the portion of inventories that was not covered by the FY 1999
                   sampling plan is accurately reported in the financial statements.



                                         13
Recommendations and Management Comments
    A. In designing future sampling plans, we recommend that the Director,
       Defense Logistics Agency:
    1. Include all Defense Logistics Agency-owned items stored at the depots in
       the sample universe and exclude Military-Department-owned items by:
           a. Obtaining the appropriate data files from the Defense Integrated
              Subsistence Management System about subsistence items stored
              at the depots.
           b. Including all Defense-Logistics-Agency-owned inventories.
           c. Using the ownership purpose codes in the Standard Automated
              Materiel Management System to distinguish Defense Logistics
              Agency-owned assets from Military-Department-owned assets.
    Management Comments. The Comptroller, DLA, concurred and stated that
    DLA is revising its sampling methodology and corresponding sampling plan to
    include the appropriate Defense Integrated Subsistence Management System
    files. DLA is combining items from the Standard Automated Materiel
    Management System and the Defense Integrated Subsistence Management
    System to select a sample of DSS warehoused inventory and will be using
    ownership purpose codes to distinguish DLA-owned assets from Military-
    Department-owned assets.

    2. Develop procedures to draw the inventory information used for
       sampling purposes from the year-end information that the Defense
       Finance and Accounting Service uses to prepare the financial statements.
       Reconcile the two sets of records and develop other procedures to ensure
       that the interface between the Distribution Standard System and other
       Defense Logistics Agency logistics systems works correctly.
    Management Comments. The Comptroller, DLA, concurred with the
    recommendation and stated that DLA is revising its sampling procedures to
    draw the universe of DLA-owned material used for the sample from the year-
    end information that is provided to DFAS in preparing the financial statements.
    DLA will review the Quantitative Location Reconciliation policy and the
    historical reconciliation results to determine what “out-of-cycle” quantitative
    location reconciliations are necessary and achievable to support the overall Chief
    Financial Officer sampling plan.

    3. Perform the following actions:
           a. Make the necessary arrangements to select and stratify the
              universe as of September 30 of the year under review and
              complete all sample counts in as short a period as feasible after
              that. Include the necessary year-end testing procedures to cover
              the interim period from year-end to the date of the last count.

                                        14
       b. Document the sample selection process and have an independent
          party observe and monitor the sample selection process.
       c. Use a 95-percent confidence level and a precision level of plus or
          minus 2.5 percent.
       d. Use the results of the FY 1999 and later samples to improve the
          design of future samples including refining the stratification of
          the Defense Logistics Agency universe and estimates of expected
          error rates in each stratum.
Management Comments. The Comptroller, DLA, concurred and stated that,
as identified in response to Recommendation A.2., DLA is making the
necessary arrangements to select and stratify the September 30 universe. The
DLA distribution depots would perform and complete all sample counts in as
short a period as feasible and rely on an independent third party for monitoring
the process. DLA will document the sample selection process and have an
independent party observe and monitor the actual selection process. The
sampling plan will use a 95-percent confidence level and a precision level of
plus or minus 2.5 percent. The design and efficiency of future sampling plans
will use the results of previous samples.

4. Include procedures to validate pricing data by tracing prices from the
   logistics feeder systems to the appropriate procurement records.
Management Comments. The Comptroller, DLA, partially concurred and
stated that the DLA FY 1999 sampling plan was not designed to and did not
include procedures to test the accuracy of the pricing data in Standard
Automated Materiel Management System. DLA will defer comments on
planned actions to validate Standard Automated Materiel Management System
pricing data until ongoing audit results covering the issue are completed and
published.

5. Consolidate, to the extent possible, the materiel located outside the
   distribution depots into the depots.
Management Comments. The Comptroller, DLA, partially concurred and
stated that the DLA will position its material in the depots to the extent possible.
The need to support the warfighter requires storing material at non-DSS depot
sites.

6. Expand the sampling procedures or develop other procedures to validate
   the accuracy of the inventory records for Defense Logistics Agency-
   owned materiel and fuels stored at storage organizations that do not use
   the Distribution Standard System.
Management Comments. The Comptroller, DLA, partially concurred with the
recommendation and stated that controls are established by other organizations
that store DLA-owned materiel. However, DLA will validate the existing
inventory procedures at non-DSS sites to determine whether additional

                                     15
procedures are necessary. The Comptroller also stated that DLA planned to use
its ability to obtain 100-percent fuel inventories at all fuel sites at year-end and
existing processes and controls to obtain year-end balances.




                                     16
           B. Physical Count and Summary
              Procedures
           Previous audits that the General Accounting Office and the Inspector
           General, DoD, conducted since FY 1996 reported problems with the
           accuracy of the depot perpetual inventory records and procedures for
           verifying record accuracy. Based on our analysis of about 88 percent of
           the sample dollars (68 percent of the sample items), we concluded that
           the previously reported problems continued to occur during FY 1999.
           Problems continued to occur because DLA did not establish a sufficient
           level of control over the procedures that its distribution depots used to
           conduct physical inventory counts and to summarize the results of the
           counts. The control weaknesses at the depots occurred for the following
           reasons.

                  •   Personnel at the depots who performed the counts could
                      access DSS to determine the expected number of items on
                      hand before verifying the on-hand quantities.

                  •   Most depots used the same warehouse personnel that were
                      primarily responsible for storing, rewarehousing, and issuing
                      items being counted.

                  •   DLA controls did not ensure that all items selected for
                      physical count were actually counted and that the observed
                      results were reported.

           In addition, DLA did not adequately document its procedures to collect
           and summarize sample results. We were unable to obtain sufficient
           evidence to support the results that DLA reported for about 12 percent of
           the sample value, and the control weaknesses at the depots raised
           questions about the integrity of the counts that we did not observe.


DoD and DLA Physical Count Procedures
    DoD Inventory Procedures. Confirming the validity of inventory records
    through physical count and inspection is the most effective way to verify the
    integrity of the underlying inventory records. Good count procedures generally
    require that personnel performing the physical counts be sufficiently independent
    from the day-to-day receipt, issue, and storage functions. Also, all sample
    items must be physically counted.

    DoD Regulation 4140.1-R, the “DoD Materiel Management Regulation,”
    May 20, 1998, and DoD Manual 4000.25-2, “Materiel Standard Transaction
    Reporting and Accounting Procedures,” August 1996, establish DoD
    policies for inventory management records and for devoting the resources

                                       17
           necessary to complete the required inventories. The regulations also require
           annual random statistical samples to support the accuracy of logistics and
           financial records.

           In general, the physical count procedures that DLA developed for the FY 1999
           sample required the depot personnel to physically count and verify the on-hand
           quantity for the 3,153 individual sample items (4,255 warehouse locations)5 and
           enter the information into DSS immediately after they completed the counts. If
           DSS detected quantity variances between the recorded balances and the results
           of the counts, it generated notices to the depots to validate the variances with
           second counts. If second counts did not match first counts or the variances
           detected were unusually large, depot personnel generally performed third
           counts. Depot personnel then reported their final count results into DSS, which
           summarized the counts at multiple locations at the item level, and DSS provided
           the summary information that DLA used for projection purposes.

           Audit Requirements. Observation of inventories is a generally accepted
           auditing procedure. Auditing standards require that auditors observe physical
           inventory counts and be satisfied that all counts were completed and the results
           correctly summarized. When the client checks its perpetual inventories
           periodically by comparisons with physical counts, the auditor’s observations can
           be performed either during or after the end of the period under audit. The audit
           standards do not specify the precise number or percentage of physical counts
           that must be observed because that is a matter of auditor judgement, which is
           based on prior audit experience and the auditor’s assessment of the level of
           controls established by the audit client.



Previously Disclosed Control Weaknesses
           The essence of statistical sampling as it relates to estimating the dollar value
           accuracy of an entire universe is to select, by some random (or chance) process,
           a relatively small number of items and gather information about them. If the
           sampling plan is designed and executed properly, information gathered about the
           sample items can provide a very reliable estimate of the dollar accuracy across
           the spectrum of all items in the sample universe. Reliable sample results require
           strong controls to ensure a high degree of certainty that depot personnel inspect
           and count all sample items properly and record their results into DSS accurately
           and in a timely manner.

           Previous audits that the General Accounting Office and the Inspector General,
           DoD, conducted since FY 1996 reported problems with the accuracy of the
           depot perpetual inventory records and procedures for verifying record accuracy.

5
    The sample actually included 3,177 items. However, DLA selected 24 items multiple times, leaving
    3,153 individual items to be physically counted. The depots stored 637 of the 3,153 sample items at
    multiple storage locations, ranging from 2 to 18 separate locations for a particular item. Consequently,
    to validate the sample, depot personnel had to physically count 4,255 separate storage locations.

                                                      18
    Issues of verifying inventory accuracy using statistical sampling are addressed in
    finding A. The major issues of inventory count and summary procedures are
    discussed as follows.

    Access to DSS Records. Personnel at the depots who performed the counts
    could access DSS to determine the expected number of items on hand before
    verifying the on-hand quantities. That weakness was magnified by the fact that
    DLA put a premium on processing inventories quickly and reporting high levels
    of record accuracy for performance purposes, which increased the possibility
    that depot personnel would not actually count all sample items.

    Incompatible Functions. Most depots used the same warehouse personnel that
    were primarily responsible for storing, rewarehousing, and issuing items being
    counted. Segregation of incompatible functions is an essential management
    control to safeguard assets because it ensures that a person is not put in a
    position to perpetrate and conceal errors or irregularities in the ordinary
    performance of that person’s duties.

    Completion of All Sample Counts. Established DLA controls did not ensure
    that all items selected for physical count were actually counted within
    established timeframes. The number of items selected by the FY 1999 sampling
    plan represented about one tenth of 1 percent of the total number and value of
    DLA-owned items stored at the 18 distribution depots. Because such a small
    number of inventory records are actually validated through physical counts, the
    depot personnel must count all sample items and properly record their results.

    In previous audits, the auditors concluded that weaknesses in the depot count
    and summary procedures raised questions about the integrity of the counts and
    reported accuracy rates.



Summary of FY 1999 Count Observations
    We observed counts and monitored the summary processes that DLA used at the
    11 depots (13 sites) selected by the FY 1999 sampling plan. As depicted in
    Figure 2, our observations covered about 68 percent of the sample items and
    about 88 percent of the sample dollars.

    We concluded that the problems reported in the previous audit reports continued
    to occur during FY 1999. The problems continued because DLA did not
    establish a sufficient level of control over and document the procedures that its
    distribution depots used to conduct physical inventory counts and to summarize
    the results of the counts.




                                        19
                          32                                                          12

                                        Unobserved
                                        Observed



68                                                               88

Percent of Items Covered                                 Percent of Dollar Value Covered


     Figure 2. Counts Observed as a Percentage of Sample Items and Dollar Value



     Documentation of Count and Summary Procedures
           To execute the revised sampling plan during FY 1999, DLA issued some
           additional procedures to assist depot personnel. However, DLA did not
           adequately document in the sampling plan all relevant procedures for the
           inspection, count, and summary processes. As a result, depot personnel did not
           complete the essential procedures discussed as follows.

           Conducting Physical Counts Without Auditor Observations. Some depot
           personnel started counting sample items before the auditors arrived at the site or
           made counts at locations where auditors were not present to observe them. For
           example, Defense Depot Oklahoma City, Oklahoma, completed 22 physical
           counts before the arrival of auditors at the site and recorded all 22 record
           balances as correct. However, when the auditors verified the accuracy of the
           reported results for the 22 items, 3 of the items actually had variances. For
           example, the DSS records indicated that the depot had 396 feet of a particular
           type of rubber seal (national stock number 5330-01-220-2350). Our observation
           of an actual measurement of the seal showed actually only 200 feet on hand and
           that depot personnel had not measured the rubber seal previously.

           Validating the Condition of Sample Items. The DLA sampling plan did not
           adequately document the actions that depot personnel must take during the
           physical inventory process to validate that the condition of each sample item is
           properly reflected in the DSS record. DSS represents an item’s physical
           condition by using the condition codes that DoD established. Errors in the
           condition codes recorded in DSS can potentially affect the reported value of the
           inventory because broken or otherwise unusable items should be valued at their
           potential scrap value rather than cost.
           Validating In-Float Transactions for Sample Items. The DLA sampling plan
           did not adequately document the actions that depot personnel must take to
           validate in-float transactions for the selected sample items. An in-float situation

                                               20
           occurs when all or some portion of a selected sample item has a receipt, issue,
           or re-warehousing transaction that occurs on the date of the physical count. For
           example, during physical inventory observations at the Defense Depot San
           Diego, California, the DSS inventory record showed that an aircraft rib
           assembly, valued at $4,572, was stored at a DLA warehouse located on the
           North Island Naval Air Station. When the auditors visited the North Island
           facility, they found the location empty. That situation occurred because depot
           personnel had moved the item (they processed a re-warehousing transaction) to a
           warehouse located on the San Diego Naval Station. The auditors visited the
           new location at the San Diego Naval Station and found the item.

           DoD Manual 4000.25-2 states that a storage activity may reduce the volume of
           in-float transactions during the time that the organization is performing physical
           counts by suspending some routine transactions, such as the issue of low priority
           items. However, it is not DoD policy for the distribution depots to stop
           processing all transactions during the period that the depots perform their
           physical inventory counts. Consequently, one or more selected sample items
           could be in an in-float situation on the date of the physical count.

           Reporting Count Variances. Information that auditors collected about count
           variances during their count observations sometimes conflicted with the final
           results reported by the depots. In some cases, we could not substantiate the
           reasons for the changes6 because depot personnel made changes based on
           unobserved second or third counts. In at least 25 instances, however, we were
           able to substantiate that the quantity variances reported by the depots were in
           error. The errors occurred mainly because depot personnel reversed previous
           inventory adjustments as a means to clear a current variance. For example, our
           observation of an inventory count of a ring assembly (national stock number
           2840-00-066-9660) at Defense Depot San Diego, California, showed an on-hand
           balance of 28, which was 12 less than the DSS record balance of 40. Depot
           personnel reported no variance in their final sample results because they
           reversed a previously reported gain adjustment for the item that was posted to
           the record 8 months earlier.

           Completing and Reporting Sample Results. The DLA procedures to collect
           and summarize the sample results did not ensure that the depots reported the
           results of physical counts for all the 3,153 sample items. When DLA initially
           collected the sample results, 111 sample items had no reported results. The
           Defense Distribution Center contacted the depots that had not reported results
           and obtained information for 70 of the missing items. At the time that DLA
           made its projection, it excluded 41 items from its sample estimate.




6
    In 25 instances, we were not able to substantiate the reasons for changes to variances observed by the
    auditors. We treated those items as unobserved items in our computation of sample items and sample
    dollars covered.

                                                      21
Inventory Count Integrity
     During the audit, we observed and obtained the necessary documentation to
     substantiate the on-hand balances for 2,156 of the sample items. We were
     unable to obtain sufficient evidence to support the results that DLA reported for
     997 of the sample items (about 12 percent of the sample value), and the reported
     error rate for those items was 4 percent lower than the observed inventory
     counts. The types of control weaknesses noted in this finding raised questions
     about the integrity of the 997 counts that we did not observe.



Effect on Sample Results
     The presence of auditors during physical counts ensured that depot personnel
     actually made physical counts and correctly reported observed variances for
     2,156 items. Additionally, our involvement in the summary process identified
     other errors such as incorrect computation of averages, missing sample items,
     incorrect variances reported, and duplicate items. Adjusting for the errors and
     increasing the confidence level from 90 percent to 95 percent slightly changed
     our adjusted sample estimate as depicted in Figure 3.




                                                             Materialty Range
                                                             DLA Estimate
                                                             Audit Adjustments


                                          Book Value
    $8,900.00     $9,000.00       $9,100.00        $9,200.00         $9,300.00   $9,400.00
                                     (numbers in millions)

    Figure 3. Comparison of DoD Materiality Range to Sample Estimates


     The audit adjustments increased the error bound from $90.2 million to
     $114.4 million and decreased the book value point estimate by $1 million.
     However, the adjusted estimate still fell within the 2.5 percent materiality range.



Conclusion
     Although problems with physical count and summary procedures continued to
     occur during FY 1999, DLA could overcome most problems that we observed

                                          22
by creating an independent process to observe and monitor physical count and
summary procedures. Independent personnel should observe inventory counts
to make sure that depot personnel completed them and track the observed
variances through the summary and projection process to make sure that the
sample estimate is correct.



Recommendations and Management Comments
       B. We recommend that the Director, Defense Logistics Agency:
       1. Establish an oversight mechanism requiring that personnel, who
          are independent of depot operations, observe the physical counts
          for sample items and monitor the results through the sample
          projection.
       Management Comments. The Comptroller, DLA, partially concurred
       and stated that DLA has already completed actions in response to a
       related General Accounting Office report that will ensure proper
       separation of duties in the counting process. The Comptroller further
       stated that DLA will also rely on its independent auditors to observe and
       monitor count procedures.

       2. Fully document the sample count and summary procedures and
          include the documentation as part of the sampling plan.
          Specifically, the plan should adequately document the actions that
          depot personnel must take to:
          a. conduct physical counts only with independent personnel
             present;
          b. validate the condition codes in the Distribution Standard
             System;
          c. validate in-float transactions;
          d. report observed count variances before making adjustments
             for previously reported adjustments.
          e. report the results of all sample counts and include them in the
             sample estimate.
       Management Comments. The Comptroller, DLA, concurred and stated
       that DLA will use the auditors to observe counts. Additionally, DLA
       will verify condition codes using existing radio devices and take action if
       there are inconsistencies, reemphasize the importance of using the on-
       line re-warehousing tools available in DSS for in-float transactions, and



                                   23
issue a policy reiterating guidance that it will not perform causative
research during the pre-adjustment phase of a sample inventory. DLA
will ensure that all sample items are accounted for in its FY 2000
sample.




                           24
Appendix A. Audit Process


  Scope
      We performed this audit as part of the requirements of Public Law 101-576, the
      “Chief Financial Officers Act of 1990,” November 15, 1990, as amended by
      Public Law 103-356, the “Federal Financial Management Act of 1994,”
      October 13, 1994. For this part of the audit, we limited the scope of our review
      to evaluating the procedures and controls that DLA had in place to ensure the
      dollar accuracy of the $7.8 billion of inventory it owned and stored at the 18
      distribution depots included in its statistical sampling plan.

      To evaluate the statistical validity of the statistical sampling plan, we obtained
      assistance from the Quantitative Methods Division, Office of the Assistant
      Inspector General for Auditing, DoD. The Quantitative Methods Division
      assisted us in reviewing the sample design and sample selection processes,
      assisted us in determining whether the sampling techniques were appropriate
      under the circumstances, and assisted us in evaluating the sample projections.

      Work Performed. DLA relies on statistical sampling techniques to measure the
      accuracy of the depot records because DLA determined that performing annual,
      100 percent wall-to-wall inventory counts at all depots was not practical or cost-
      effective. The Quantitative Methods Division reviewed the technical aspects of
      the DLA sampling plan, and we addressed all of the division’s concerns in this
      audit report. We evaluated the sampling methodology that DLA developed, and
      we observed the related physical count and summary procedures that DLA used
      to determine whether the procedures would achieve the intended objectives of
      the sampling plan. Our audit included observing and validating the reported
      variances for 2,156 items, ensuring that results for all 3,153 items were
      reported, evaluating depot count and summary procedures, and checking the
      mathematical accuracy of the formulas used to project the sample results. We
      also used analytical procedures to compare the sample universe with the
      information provided to DFAS to prepare the financial statements.
      Limitations to Audit Scope. The FY 1999 sampling plan was designed to test
      the accuracy of the DLA-owned portion of materiel stored at 18 distribution
      depots by determining the effect that quantity variances in DSS have on dollar
      value. Accordingly, the plan intentionally excluded about 30 percent of total
      DLA inventories reported on the DLA financial statements. Consequently, the
      audit results only pertain to the portion of inventories covered by the sampling
      plan and cannot be related to the inventory records for the other DLA-owned
      materiel and fuels. Additionally, the audit did not attempt to determine the
      impact that erroneous pricing data in the logistics feeder systems or other
      valuation problems might have on the sample results.



                                           25
    The sampling plan was based on the assumptions that stratifying the universe
    and performing physical counts before year-end produced essentially equivalent
    results to what would have been achieved if the stratification and counts were
    completed on September 30, 1999. The plan also assumed that DSS could
    effectively carry forward the inventory balances from the date of sample
    selection until year-end. The sampling plan did not include procedures and we
    did not perform detailed audit steps or systems reviews to validate those
    assumptions.
    DoD-Wide Corporate-Level Government Performance and Results Act
    Goals. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate-level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal:

    FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain future
    by pursuing a focused modernization effort that maintains U.S. qualitative
    superiority in key warfighting capabilities. Transform the force by exploiting
    the Revolution in Military Affairs, and reengineer the Department to achieve a
    21st century infrastructure. (01-DoD-2)

           •   FY 2001 Subordinate Performance Goal 2.5: Improve DoD
               financial and information management. (01-DoD-2.5)

           •   FY 2001 Performance Measure 2.5.1: Reduce the number of
               noncompliant accounting and finance systems. (01-DoD-2.5.1.)

           •   FY 2001 Performance Measure 2.5.2: Achieve unqualified
               opinions on financial statements. (01-DoD-2.5.2.)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

           Financial Management Functional Area. Objective: Reengineer DoD
           business practices. Goal: Standardize, reduce, clarify, and reissue
           financial management policies. (FM-4.1)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Financial Management and Inventory Management high-risk areas.


Methodology
    The Quantitative Methods Division, Office of the Assistant Inspector General
    for Auditing, DoD, and the General Accounting Office assisted us in evaluating
    the statistical sampling techniques that DLA used in its FY 1999 sampling plan.

                                       26
    We based our conclusions about the adequacy of the DLA count, inspection, and
    summary procedures by observing the procedures that depot personnel
    performed on 2,156 items at the 13 inventory sites and by monitoring the
    summary process for all items. We compared our observations with the
    conditions reported in the previous audit reports.

    Use of Computer-Processed Data. DLA used computer-processed data and
    automated data extraction and matching routines to identify the DLA-owned
    items stored at the depots and to revalue the inventory from standard price to
    latest acquisition cost. We did not test the general and application controls in
    DSS and did not make any conclusions about the reliability of the transactions
    posted to the DSS records before the dates that depot personnel performed the
    physical inventory counts. Our comparison of physical counts that we observed
    with DSS record balances validated the DSS records as of the date that physical
    counts were conducted. We also did not test the interface processes between
    DSS and the DLA logistics feeder systems that were used to prepare the
    financial statements. Accordingly, we were not sure that the DSS records that
    DLA validated through statistical sampling were the same records that DFAS
    used to prepare the financial statements.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from July 1999 through February 2000. Our review was made in accordance
    with auditing standards issued by the Comptroller General of the United States,
    as implemented by the Inspector General, DoD.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available upon request.



Management Control Program
    DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, requires DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that
    programs are operating as intended and to evaluate the adequacy of those
    controls.
    Scope of the Review of the Management Control Program. We reviewed the
    FY 1999 Annual Statement of Assurance issued by DoD and DLA to determine
    whether the issues addressed in this report had been reported as material
    management control weaknesses.

    Adequacy of Management Controls. We identified material management
    control weaknesses, as defined by DoD Instruction 5010.40, “Management
    Control (MC) Program Procedures,” August 28, 1996, related to the
    development and execution of the DLA sampling plan. The details of the
    management control weaknesses are provided in detail in the two findings in this
    report. The recommendations in this report, if implemented, will improve the
    adequacy of the design of future sampling plans and improve physical count and

                                       27
     summary procedures. A copy of this report will be provided to the senior
     official responsible for management controls in DLA.
     Adequacy of Management’s Self-Evaluation. The FY 1999 DLA Annual
     Statement of Assurance did not identify any material control weakness related to
     the design and execution of the FY 1999 sampling plan.



Prior Coverage

General Accounting Office
     General Accounting Office Report No. 99-132 (OSD Case No. 1793), “Better
     Controls Essential to Improve the Reliability of DoD’s Depot Inventory
     Records,” June 28, 1999.


Inspector General
     Inspector General, DoD, Report No. 99-089, “Internal Controls and
     Compliance With Laws and Regulations for the FY 1998 Financial Statements
     of the Defense Logistics Agency Working Capital Fund,” March 1, 1999.

     Inspector General, DoD, Report No. 99-080, “Status of the Defense Logistics
     Agency Plan to Measure Inventory Record Accuracy at the Distribution Depots
     Using Statistical Sampling,” February 10, 1999.

     Inspector General, DoD, Report No. 98-148, “Internal Controls and
     Compliance With Laws and Regulations for the FY 1997 Financial Statements
     of the Defense Logistics Agency Working Capital Fund,” June 5, 1998.

     Inspector General, DoD, Report No. 98-072, “Defense Business Operations
     Fund Inventory Record Accuracy,” February 12, 1998.

     Inspector General, DoD, Report No. 98-019, “Inventory Record Accuracy and
     Management Controls at the Defense Logistics Agency Distribution Depots,”
     November 10, 1997.




                                        28
Appendix B. Additional Information About the
            FY 1999 Sampling Plan
   This appendix provides additional information about the FY 1999 sampling
   plan. It provides a general description of distribution depot operations, explains
   the objectives and scope of the plan, and provides other relevant information
   about the FY 1999 sampling plan.

   DLA Distribution Depot Operations. At the end of FY 1999, DLA operated
   24 distribution depots. DoD organizations buy large amounts of materiel and
   store it at the distribution depots until needed. The DLA distribution depots
   comprise the largest concentration of DoD materiel for which a single DoD
   entity, DLA, maintains the accountable records.

   The depots receive newly procured items; make redistributions (move materiel
   between depots); receive items returned from field organizations; issue materiel
   to customers; and provide for the care, preservation, and quality control of
   items in storage. DLA maintains ownership of most consumable items, and the
   Military Departments own most reparable items. The DLA-owned materiel
   stored at the depots included spare and repair parts and other items classified
   into construction, electronics, industrial, general, clothing and textile, and
   subsistence (food) commodity groups.

   Over the last several years, DLA implemented DSS at its distribution depots.
   DSS is a perpetual inventory system that maintains a continuous record about
   the location, quantity, and condition of each item stored. The DSS increases the
   on-hand inventory balances when stock is received, decreases inventory
   balances when stock is issued, and adjusts balances based on the results of
   physical inventory counts and materiel redistributions. Information in the DSS
   records updates the Standard Automated Materiel Management System and the
   Defense Integrated Subsistence Management System (logistics feeder systems),
   which are used to prepare the DLA financial statements. DLA relies on
   statistical sampling techniques to measure the accuracy of information in the
   DSS perpetual inventory records.

   Objectives of the FY 1999 Sampling Plan. The objective of the FY 1999
   sampling plan was to measure the dollar value accuracy, as of
   September 30, 1999, of the portion of DLA-owned inventories stored at the 18
   distribution depots that used DSS. By excluding procedures to validate the unit
   price data in the logistics feeder systems, DLA designed the sampling plan to
   only measure the effect that quantity discrepancies in the DSS records had on
   the total dollar value of materiel stored at the 18 depots.

   DLA personnel consulted with auditors and statisticians from the Office of
   Inspector General, DoD, and the General Accounting Office to design a
   sampling plan that was statistically valid, was cost-effective to implement, and
   would provide enough time to allow auditors to observe the inventory counts.

                                       29
DLA determined that to meet those goals, the FY 1999 sampling plan should be
executed over a period of 3 months from the date that items were categorized
and selected and year-end.

By design, the sample universe excluded all Military-Department-owned
materiel stored at the 24 depots and the DLA-owned portion of the materiel
stored at 6 depots. The plan also intentionally excluded DLA-owned material
and fuels stored outside the depots, in-transit material, and other types of
inventories not recorded on the DSS records. The excluded materiel
represented about 30 percent of total DLA inventories. At year-end, the depot
records showed 2.4 million items, valued at about $10.1 billion (standard price),
of DLA-owned materiel stored at the 18 depots.
Revaluation of the Universe. In designing the sampling plan, DLA attempted
to relate the sample universe to the information used for financial statement
purposes. Although DSS had standard pricing data for materiel stored at the
depots, the pricing data exceeded the historic cost of the materiel because it
included a surcharge for cost recovery purposes. The pricing data used to value
the inventory in the financial statements is maintained by the DLA inventory
control points in the Defense Integrated Subsistence Management System for
subsistence items and in the Standard Automated Materiel Management System
(logistics feeder systems) for all other items. To properly value the inventory,
DLA obtained pricing data from the Standard Automated Materiel Management
System and revalued the universe. The 2.4 million items were valued at about
$7.8 billion at latest acquisition cost. As discussed in finding A, however, the
$9.1 billion universe that DLA tested in FY 1999 inadvertently included about
$1.3 billion of Military-Department-owned inventories. The sampling plan did
not, however, include any tests to validate the accuracy of the information in the
logistics feeder systems, and the plan assumed that the pricing data were
accurate. Accordingly, any unit pricing errors that are in the logistics systems
were not considered in the FY 1999 sampling plan.
Sample Criteria. DLA designed the FY 1999 sampling plan to achieve a
confidence level of 90 percent and a precision of plus or minus 2.5 percent
according to the criteria that DoD Regulation 7000.14-R established. This
means that, at a 90-percent confidence level, the sample estimate plus or minus
the achieved precision level must reside within the book value plus or minus
2.5 percent, which is the materiality range set by DoD.

Sampling Process. For sampling purposes, DLA considered the 18 depots
included in the sample universe to have 20 separate sites. Although DLA
considered Defense Depot San Joaquin, California, and Defense Depot
Susquehanna, Pennsylvania, as single depots, each had two separate sites.
Defense Depot San Joaquin, California, had sites located in Sharpe and Tracy,
California. Defense Depot Susquehanna, Pennsylvania, had sites located in
Mechanicsburg and New Cumberland, Pennsylvania. All four sites were treated
as separate sites for sampling purposes. The composition of DLA-owned
materiel stored at the 18 depots (20 sites) in the DLA universe for sampling is
shown in the table in Appendix C.


                                    30
DLA used a two-stage, stratified statistical sample to select its sample from the
June 30, 1999, universe. The first stage was the selection of depots, and the
second stage was the selection of items.

        First Stage. For the first stage of the sample, DLA used probability
proportional to size with replacement to select the 20 sites where depot
personnel were to perform the physical counts. In other words, the chance of a
site being selected was in direct proportion to the amount of DLA-owned
materiel stored at that site as of June 30, 1999. After a site was selected, it was
placed back in the pool for possible selection again. Accordingly, the selection
method that DLA used in the first stage allowed for sites with a greater
inventory value to have a greater likelihood of being selected and for any site to
be selected more than once or not at all.

To perform the first stage of the sample, DLA collected information about all
DLA-owned materiel stored at the 18 depots (20 sites) as of June 30, 1999. The
DLA-owned portion of the materiel stored at the depots comprised about
65 percent of the items and about 13 percent of the total value of the inventories
stored at the 18 depots. The value of the DLA-owned inventories was based on
prices in the DLA logistics feeder systems. The depots selected in their order of
selection are depicted in Table B-1.


                     Table B-1. Selected Depots
    Distribution Depot                                          Order of
                                                                Selection
    Defense Depot Richmond, Virginia                             1 and 5
    Defense Depot Norfolk, Virginia                             2 and 15
    Defense Depot San Joaquin, California-Sharpe                3 and 12
    Defense Depot San Diego, California                       4, 16, and 18
    Defense Depot Warner Robins, Georgia                            6
    Defense Depot Cherry Point, North Carolina                      7
    Defense Depot Susquehanna, Pennsylvania-                        8
    Mechanicsburg
    Defense Depot Red River, Texas                                   9
    Defense Depot Susquehanna, Pennsylvania-New                 10, 11, 19
    Cumberland
    Defense Depot Barstow, California                              13
    Defense Depot Albany, Georgia                                  14
    Defense Depot Oklahoma City, Oklahoma                          17
    Defense Depot San Joaquin, California-Tracy                    20


        Second Stage. In the second stage of the sample, DLA categorized the
items stored at the 13 sites into 7 categories, or strata. The stratification
categories that DLA used are depicted in Table B-2.


                                    31
       Table B-2. Stratification Categories of Stored Items
Strata       Type                 Unit Price                    Extended Value
  1      Measurables               ______                           ______


  2      Countables       Greater than or equal to $0     less than or equal to $2,000
                          and less than $500
  3      Countables       Greater than or equal to $0     greater than $2,000
                          and less than $500
  4      Countables       Greater than or equal to $500 less than or equal to $10,000
                          and less than $1,000

  5      Countables       Greater than or equal to $500 greater than $10,000
                          and less than $1,000
  6      Countables       Greater than or equal to                 ______
                          $1,000 and less than $50,000
  7      Countables       Greater than or equal to                  ______
                          $50,000



      The unit of measure for the sampling plan was an item (the net total number of
      items at all individual storage locations) at a particular depot regardless of
      condition. All DLA-owned items stored at the 13 sites (excluding items
      transferred to the Defense Reutilization and Marketing Service) were included in
      the sample universe. Based on past experience, DLA determined that the
      minimum sample size should be 3,000 items or 150 items per site selected in the
      first stage of the sample.


      The DLA-owned items stored at the 13 sites were allocated among the stratum
      using Neyman’s Allocation. Neyman’s Allocation is an efficient sample
      apportionment algorithm that allocates a larger portion of the sample to strata
      with large variances and a smaller portion to strata with small variances. A
      stratum’s sample size at any given site was determined by the size of the stratum
      and its estimated variance (error rate). Because DLA had only limited
      information from prior samples when it designed the FY 1999 sample, error
      rates had to be estimated and averaged. DLA also established a requirement
      that at least five items be included from each stratum for each site selected in
      stage one of the sample.

      DLA assigned all items in the June 30, 1999, universe to the appropriate
      stratum. To keep the sample statistically valid, DLA had to keep characteristics
      of the universe that were established as of June 30 constant. Items remained in
      the stratum that they were originally assigned regardless of what stratum they

                                         32
would have been assigned had the universe been stratified again on
September 30, 1999. Because DLA designed the sampling plan to provide an
estimate of dollar accuracy at year-end balance, the plan assumed that the
characteristics of each stratum did not change significantly during the interim
period.

Sample Size. To achieve the sampling objectives, the DLA sampling plan
required that depot personnel count 3,177 items. The sample size per site
ranged from 153 items to 168 items. Because 24 of the sample items were
selected more than once, the sampling plan required that depot personnel
actually physically count 3,153 individual items. The depots stored 637 of the
3,153 items at multiple warehouse locations (ranging from 2 to 18 locations per
item). Consequently, to validate the sample, depot personnel had to physically
count 4,255 separate warehouse locations at the 13 sample sites selected in the
first stage of the sample. Depot personnel began their counts on August 2,
1999, and finished them all during September 1999. Because all of the counts
were not done on September 30, the plan assumed that variances observed
before year-end remained valid for up to 2 months. The sampling plan did not
include any roll-back procedures to cover the interim period from the count
dates and June 30 (date of universe selection) or roll-forward procedures to
cover the interim period from the universe selection and count dates to year-end.

Summary Process. Results for each of the 3,153 items were established
through physical counts. DLA netted at the item level the observed variances
for items with multiple locations so that each sample item had only one result.
The reported results were that the DSS record was correct, the DSS record was
overstated by the observed variance, or the DSS record was understated by the
observed variance. For projection purposes, DLA used the observed variances
at the dates of the counts and the characteristics of the universe as of June 30 to
estimate dollar accuracy as of September 30. Consequently, the sampling plan
had an assumption that variances observed up to about 2 months before year-end
would have been the same as the variances that would have been observed had
all items been counted on September 30.




                                    33
  Appendix C. Composition of Defense Logistics
  Agency-Owned Materiel Stored at the 24 Defense
  Depots
                   Distribution Depot                       Included in   Included in     Inventory Value
                                                            the sample     the DLA
                                                             universe       sample
Defense Depot Albany, Georgia                                   Yes           Yes          $ 249,182,570
Defense Depot Anniston, Alabama                                 Yes           No                29,402,997
Defense Depot Barstow, California                               Yes           Yes             233,031,527
Defense Depot Cherry Point, North Carolina                      Yes           Yes             248,606,466
Defense Depot Columbus, Ohio                                    Yes           No              205,587,517
Defense Depot Corpus Christi, Texas                             Yes           No                26,690,486
Defense Depot Europe                                            No            No                22,914,442
Defense Depot Hill, Utah                                        Yes           No              419,966,826
Defense Depot Jacksonville, Florida                             Yes           No              259,645,210
Defense Depot McClellan, California                             No            No                11,037,350
Defense Depot Norfolk, Virginia                                 Yes           Yes             513,988,474
Defense Depot Oklahoma City, Oklahoma                           Yes           Yes             679,491,510
Defense Depot Pearl Harbor, Hawaii                              No            No                10,325,791
Defense Distribution Depot Puget Sound, Washington              Yes           No                58,672,591
Defense Depot Red River, Texas                                  Yes           Yes             189,206,321
Defense Depot Richmond, Virginia                                Yes           Yes             864,007,219
Defense Depot San Antonio, Texas                                No            No                80,994,068
Defense Depot San Diego, California                             Yes           Yes              38,849,424
Defense Depot San Joaquin, California 1                         Yes           Yes           1,907,301,327
Defense Depot Susquehanna, Pennsylvania 2                       Yes           Yes           1,459,107,446
Defense Depot Tobyhanna, Pennsylvania                           Yes           No                  434,157
Defense Depot Warner Robins, Georgia                            Yes           Yes             424,170,547
Defense Depot Yokosuka, Japan                                   No            No                 7,336,518
Defense Distribution Mapping Activity                           No            No              666,400,000
- Richmond, Virginia
  Total                                                                                    $ 8,606,350,7843




  1
      San Joaquin is a depot with facilities in Sharpe ($1,070,059,307.63) and Tracy ($922,243,613.50).
  2
      Susquehanna is a depot with facilities in Mechanicsburg ($1,020,815,501.44) and New Cumberland
      ($702,955,615.69).
  3
      Removing depots not included in the sampling plan ($799,008,169), the total value of the sample
      universe was $7,807,342,615.

                                                       34
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Deputy Under Secretary of Defense (Acquisition Reform)
Director, Defense Logistics Studies Information Exchange

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Finance and Accounting Service
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center



.


                                          35
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       36
Defense Logistics Agency Comments




                  37
38
39
40
Final Report
 Reference



page 23




               41
42
43
Audit Team Members
   The Finance and Accounting Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, produced this report.


   F. Jay Lane
   Salvatore D. Guli
   James L. Kornides
   Jean M. Jackson-Herrin
   Kevin C. Currier
   Anthony C. Hans
   Brian L. Henry
   Brian M. Stumpo
   Lusk F. Penn
   Noelle G. Blank
